<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                          _______________________

               SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman

  RODNEY P. FRELINGHUYSEN, New Jersey		MARCY KAPTUR, Ohio	
  KEN CALVERT, California			PETER J. VISCLOSKY, Indiana
  CHARLES J. FLEISCHMANN, Tennessee		MICHAEL M. HONDA, California
  JEFF FORTENBERRY, Nebraska			LUCILLE ROYBAL-ALLARD, California
  KAY GRANGER, Texas
  JAIME HERRERA BEUTLER, Washington
  DAVID G. VALADAO, California

NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                    Perry Yates, and Matthew Anderson
                             Staff Assistants

                        _____________________________

                                  PART 8
                 NATIONAL NUCLEAR SECURITY ADMINISTRATION

          Energy Weapons Activities and Nuclear Nonproliferation
                            and Naval Reactors

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                  

                       ______________________________
                        
          Printed for the use of the Committee on Appropriations
          
                       ______________________________
          
                
                           U.S. GOVERNMENT PUBLISHING OFFICE
20-843                             WASHINGTON : 2016                           
_______________________________________________________________________________          
          
          

                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey		NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama			MARCY KAPTUR, Ohio
  KAY GRANGER, Texas				PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho			JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas			ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida		        DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas				LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California			SAM FARR, California
  TOM COLE, Oklahoma				CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida			SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania			BARBARA LEE, California
  TOM GRAVES, Georgia				MICHAEL M. HONDA, California
  KEVIN YODER, Kansas				BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas		        STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska			TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida			C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee		DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington		HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio			        CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California			MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland			        DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                  William E. Smith, Clerk and Staff Director

                                   (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017

                              ----------                              

                                            Tuesday, March 1, 2016.

DEPARTMENT OF ENERGY--NATIONAL NUCLEAR SECURITY ADMINISTRATION, WEAPONS 
     AND ACTIVITIES AND NUCLEAR NONPROLIFERATION AND NAVAL REACTORS

                               WITNESSES

FRANK KLOTZ, ADMINISTRATOR FOR NUCLEAR SECURITY, DEPARTMENT OF ENERGY
ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
    NONPROLIFERATION, DEPARTMENT OF ENERGY
BRIGADIER GENERAL S.L. DAVIS, ACTING DEPUTY ADMINISTRATOR FOR DEFENSE 
    PROGRAMS, DEPARTMENT OF ENERGY
ADMIRAL JAMES FRANK CALDWELL, JR., DEPUTY ADMINISTRATOR FOR OFFICE OF 
    NAVAL REACTORS, DEPARTMENT OF ENERGY
    Mr. Simpson. I would like to call this hearing to order and 
good afternoon, everyone. Administrator Klotz, I would like to 
welcome you to your second appearance before the Subcommittee 
to testify on the budget request for the National Nuclear 
Security Administration, which includes programs that sustain 
our nation's nuclear weapons stockpile, advance U.S. nuclear 
nonproliferation goals, and support the nuclear Navy.
    Admiral Caldwell, I would like to thank you for your 
service to this country and welcome you to your first 
appearance before this Subcommittee. Since the Director of 
Naval Reactors serves an 8-year term, we look forward to having 
you this year and many years to come. You are probably going to 
outlast me. I am at that stage of life where 8 years is like 
have we got our plots ready?
    General Davis, I would like also welcome you and thank you 
for your service to the country. This is the second time you 
have testified before the Subcommittee, but the first in your 
new capacity as the Acting Director of Defense Programs.
    Ms. Harrington, I welcome you back. I believe we may have 
actually lost count of the number of times you testified before 
this Subcommittee. The expertise you bring to the table is 
incredibly valuable and we thank you for your continued 
dedication to the nonproliferation programs.
    The President's Budget Request for the National Nuclear 
Security Administration is $12.9 billion, an increase of $357 
million, or 2.9 percent above last year's level. Since the 
overall budget cap set by the Bipartisan Budget Control Act are 
flat compared to last year's level, the increases requested for 
defense activities for NNSA will need to compete with other 
important defense programs across the federal government.
    Within the NNSA budget request itself, that same 
competition for resources is evident. The Administration's 
nuclear modernization plans continue to exert large pressures 
on available funds. Weapons Activities has increased by $357 
million and Naval Reactors is increased by $45 million, while 
Nonproliferation activities are decreased by $132 million.
    We hope to hear more from you today on the prioritization 
in your budget request and how you intend to accomplish the 
modernization activities that are need to extend the life of 
our nuclear deterrent within a constrained budget environment.
    Please ensure for the hearing record that responses to the 
questions for the record and any supporting information 
requested by the Subcommittee are delivered in final form to us 
no later than 4 weeks from the time you receive them. I also 
ask that if Members have additional questions they would like 
to submit to the Subcommittee for the record that they please 
do so by close of business on Thursday.
    With those opening comments I would like to yield to our 
Ranking Member, Ms. Kaptur, for any opening comments that she 
would like to make.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
         
    Ms. Kaptur. Thank you very much, Mr. Chairman. Welcome. 
Certainly General Klotz, Admiral Caldwell, Miss Harrington, and 
General Davis, we appreciate your appearing before the 
subcommittee this afternoon. And since this subcommittee last 
met to review the National Nuclear Security Administration 
Budget, the world continues to see challenges in disparate 
areas of our globe. It is through that lens that we must assess 
our strategic future, including importantly, nuclear security.
    The possession of nuclear weapons bring an awesome 
responsibility, and no one knows that more than you do. Still 
nuclear weapons serve as only one component of our national 
nuclear strategy. The NNSA nonproliferation program also plays 
an essential role in securing nuclear material globally and 
provides a rare, though admittedly recently more limited look 
into the Russian nuclear program.
    Congress, and this subcommittee in particular, must balance 
the need to maintain our nuclear weapons stockpile with the 
importance of reducing global vulnerabilities through 
nonproliferation efforts. And additionally the tremendous 
amount of money spent on nuclear capabilities compels a sharp 
attention to ensuring financial responsibility. The NNSA makes 
up a sizeable portion of this subcommittee's bill with nuclear 
weapons and Naval Reactors representing 83 percent of NNSA's 
total budget. Mindful of the many needs of our Nation this 
subcommittee must ensure precious resources are provided as 
part of a coherent strategy. Further, the NNSA must demonstrate 
a continued ability to better manage projects, particularly in 
the weapons account.
    I remain concerned about repeated and astonishing cost 
increases and schedule delays that plague the NNSA. The nuclear 
deterrent is too important and resources too precious to waste 
funds pursuing unnecessary or unrealistic proposals. While NNSA 
has made progress toward more rigorous project and financial 
management, much work remains as you well know.
    We look forward to our discussion today.
    Mr. Chairman, I thank you for yielding the time. And thank 
you all for being here.
    Mr. Simpson. And I understand, Administrator, you have the 
opening statement and you are going to do one.
    Mr. Klotz. Yes, sir.
    Mr. Simpson. And the others were submitted for the record, 
is that correct?
    Mr. Klotz. Yes, sir.
    Mr. Simpson. The time is yours.
    Mr. Klotz. Okay. Thank you, sir. Chairman Simpson, Ranking 
Member Kaptur, and members of the subcommittee, thank you for 
the opportunity to present the President's Fiscal Year 2017 
Budget Request for the Department of Energy's National Nuclear 
Security Administration. We have provided you a written 
statement and respectfully request that it be submitted for the 
record.
    We value this committee's leadership in national security 
as well as its robust and abiding support for the missions and 
for the people of the NNSA. Our budget request, which comprises 
more than 40 percent of DOE's overall budget is $12.9 billion, 
an increase of nearly $357 million or 2.9 percent over the 
fiscal year 2016 enacted level.
    The budget request continues the Administration's 
unwavering commitment to NNSA's important and enduring 
missions. These missions are defined in the NNSA Strategic 
Vision, which we released at the end of last year. They include 
to maintain a safe, secure, and effective nuclear weapons 
stockpile; to prevent, counter, and respond to the threat of 
nuclear proliferation and nuclear terrorism; and, to support 
the capability of our nuclear powered Navy to project power and 
to protect American and Allied interests across the globe.
    To succeed, NNSA must maintain cross cutting capabilities 
that enable each core mission, again as defined in our 
Strategic Vision. These cross cuts focus on advancing science, 
technology, and engineering, supporting our people, and 
modernizing our infrastructure, and developing a management 
culture focused on safety, security, and efficiency, adopting 
the best practices and use across the government and in the 
commercial world. If you would like, I would also be pleased to 
provide a copy of this document to the subcommittee for the 
record.
    [A copy of the NNSA Strategic Vision follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Klotz. The budget materials and briefings we have 
provided describe NNSA's major accomplishments in the calendar 
year 2015, as well as the underlying rationale for our budget 
proposal for fiscal year 2017. Let me just briefly highlight a 
few points here.
    First and foremost, the United States has maintained a 
safe, secure, and effective nuclear weapons stockpile without 
nuclear explosive testing for over 20 years. NNSA's fiscal year 
2017 budget request continues a steady increase in the Weapons 
Activity appropriation. And in fact, this account has increased 
more than 40 percent since the fiscal year 2010 budget request. 
As a result of the funding provided by this Congress and 
supported by this subcommittee, and the significant 
improvements NNSA has made in program management over the past 
two to three years, all of our life extension programs are now 
on schedule and within budget.
    NNSA's science and technology base also continues to yield 
critical modeling and simulation data and deploy increasingly 
capable high performance computing in support of stockpile 
stewardship. Last year, for example, the National Ignition 
Facility at Lawrence Livermore National Laboratory in 
California increased its shot rate--that is the number of 
experiments that it does--from 191 in 2014 to 357 in 2015, 
almost doubling the shot rate, including the first-ever 
experiments at NIF using plutonium.
    Our budget request also supports the recapitalization of 
NNSA's aging research and production infrastructure. Most 
notably the facilities where we perform our major uranium, 
plutonium, tritium, and other commodity operations. Of 
significance, NNSA completed the first subproject, titled Site 
Readiness, for the Uranium Processing Facility on time and 
under budget.
    This year's request for the Defense Nuclear 
Nonproliferation account is 6.8 percent lower than the fiscal 
year 2016 enacted level for two reasons. First, prior year 
carry over balances are available to execute several programs 
in this mission space. And second, we propose terminating the 
mixed oxide, or MOX Fuel Fabrication Facility project and 
pursuing a dilute and dispose approach as a faster, cheaper 
path to meeting our national commitment and international 
agreement to dispose of 34 metric tons of excess weapons grade 
plutonium.
    The request for our third appropriations, the Naval 
Reactors programs, keeps pace with mission needs and continues 
NNSA's commitment to the three major initiatives undertaken by 
NR: The OHIO-Class Reactor Plant System development, the land-
based S8G Prototype refueling overhaul taking place in upstate 
New York, and the spent fuel handling recapitalization project 
in Idaho. For each of these missions, NNSA is driving 
improvements in management and governance. For all of our 
programs, we have instituted rigorous analysis of alternatives, 
defining clear lines of authority and accountability for 
Federal and contractor program and project management, improved 
cost and scheduled performance, and ensure that Federal project 
directors and contracting officers have the appropriate skill 
mix and professional certifications to effectively manage 
NNSA's work.
    Our budget request for the fourth appropriation, that is 
Federal Salaries and Expenses, reflects an increasing emphasis 
on improving program and project management across all our 
mission pillars.
    So, in closing, the nuclear security enterprise continues 
to make significant progress, although as the Ranking Member 
pointed out, there is still work to be done. Through 
discipline, careful planning, consistent funding, and your 
continued strong support, we believe we can make smart 
investments to build on that progress and to meet new 
challenges in the future.
    So, again, thank you for the opportunity to appear before 
you today. We all look forward to answering any questions you 
may have.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Simpson. Thank you, Administrator Klotz. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. General Klotz, I have 
a question relating to weapons dismantlement. And the budget 
request includes a significant increase for weapons 
dismantlement, something you have not typically supported, at 
least at this level. And I understand that some of this 
increase is due to Secretary Kerry's announcement to accelerate 
dismantlement by 20 percent. What benefits does this increase 
bring to the budget, to the workforce, and are there benefits 
beyond simply dismantling more weapons?
    Mr. Klotz. Thank you. That is an extraordinarily good 
question. We have all along been continuing a dismantlement 
program to dismantle all those weapons that were retired prior 
to the year 2009 by the year 2022. Last year, for instance, in 
fiscal year 2016 the Congress enacted $52 million to continue 
dismantlement activities which take place both at the Pantex 
Plant in Amarillo, Texas and at Y-12 in Oak Ridge, Tennessee.
    As you rightly pointed out, Secretary Kerry committed the 
Administration to seeking a 20 percent increase in the funding 
that we do for dismantlement, therefore our request for 2017 is 
roughly $69 million. So a significant increase.
    In addition to allowing us to complete or meet our pledge 
to dismantle all those weapons that were retired before the 
year 2009, it will allow us to do that a year earlier. But in 
addition to doing that, it will allow us to hire more staff at 
Pantex. We estimate that we will need to hire between 35 to 40 
people at Pantex to do this increased workload. We will also 
need to hire an additional 10 people we estimate, at Y-12 to do 
this work. So once we have these people on board at both of 
those sites, they have gotten their security clearances, they 
understand how to the processes work at both plants, if the 
need arises elsewhere at Pantex or Y-12 for other work that we 
do, and we do work for all three of our mission pillars, 
particularly at Y-12, then those individuals will be ideally 
suited. So we also see it as a way of starting to build that 
next generation of workforce, both at Pantex and Y-12.
    Did you want to add anything to that?
    General Davis. No, sir. I will just simply add that these 
weapons will never be returned to the field in their current 
condition so dismantling them also gives us some strategic 
materials that we can use in our other life extension programs. 
So it also provides that role.
    Mr. Klotz. Even though a weapon has been retired, we 
continue to have to ensure the safety and security of those 
retired weapons. So I used to be in the same uniform as General 
Davis, and the last thing as a commander you want to do is have 
things sitting around your base that you do not need anymore.
    Ms. Kaptur. Do you have an estimate of the numbers of those 
weapons that will be dismantled?
    Mr. Klotz. We would have to tell you the specific numbers 
in a different setting. We would be happy to do that.
    Ms. Kaptur. Thank you.
    Mr. Klotz. Yes, we do have a chart that lays all that out. 
So we will share that with you.
    Ms. Kaptur. Thank you. And just one other question on 
domestic uranium enrichment, General. Your fiscal year 2016 
budget request included $100 million to continue operating 
uranium enrichment centrifuges that were constructed as part of 
a joint demonstration with the United States Enrichment 
Corporation, or USEC, now known as CENTRUS. You now do not 
believe that this effort is worth supporting, so I have three 
little questions. What changed in the intervening year, when 
will we require a domestic capability for tritium needs, and 
thirdly, I understand that given the time horizon you are now 
considering you may look at technologies beyond ACP to achieve 
a domestic enrichment capability. How will you make a 
determination on which technology to use?
    Mr. Klotz. Thank you for the question. And if I forget to 
answer one of them, please remind me.
    Ms. Kaptur. First, what changed in the intervening year? 
You now believe that the effort is not worth supporting.
    Mr. Klotz. Well, there is a number of things that were done 
over the past several years. one, in accordance with 
congressional direction, and also direction within the 
executive branch interagency, we embarked upon a very serious 
accounting of the current and future availability of low-
enriched uranium, highly enriched uranium, and tritium to meet 
our defense needs. We also took a look at analysis of the 
various types of technology there were to produce all three of 
these commodities.
    And then we also took a look at the preliminary cost and 
schedule estimates of what it would take to build--the 
Secretary referred to it this morning--as a national security 
train of centrifuges at Piketon. One of the things that was 
revealed as we did this inventory of uranium is we were able to 
find additional uranium that could be used to meet our defense 
needs, whether it is in the production of tritium or for Naval 
Reactors or for the weapons program. So the need that we had--
--
    Mr. Simpson. Would the Ranking Member yield for just a 
second?
    Ms. Kaptur. I would be very happy to.
    Mr. Simpson. When you say you were able to find extra 
amounts of this material, is this just laying around? Don't we 
keep track of this?
    Mr. Klotz. Yes. There are various types of uranium that are 
in a form which might not be readily usable in the way in which 
we have traditionally done it. For instance, leftover materials 
that we are using at Y-12, if you are doing a cost analysis of 
whether you want to build a whole capability enriched uranium, 
or invest the money in taking this uranium that might otherwise 
have been uneconomical to use for these purposes, the cost 
curves drive you to the point it might be less expensive to 
develop the capability to use that uranium.
    Mr. Simpson. So it is not that you found this uranium in 
the back of the shed----
    Mr. Klotz. No, sir.
    Mr. Simpson [continuing]. That you did not know was there?
    Mr. Klotz. No, sir.
    Mr. Simpson. Okay.
    Mr. Klotz. And so there is cost associated with that. And 
in the out years, we will show those costs of what it takes to 
develop that uranium and downblend it for the purposes that we 
need to use it for.
    So in any event, given the fact that the need for this 
uranium--or the need for it to have to use or develop a 
capability of using only U.S. technology to enrich uranium got 
pushed out to roughly 2040. So we used the cascade, the 100-120 
large centrifuges that were in Piketon, for several years to 
basically do a proof of concept to do the research and 
development for these large centrifuges which are there. In our 
assessment, we have now obtained all the data that we need on 
how to at this point from the facility at Piketon. There is 
still work that we will continue to do on the large centrifuges 
at Oak Ridge in Tennessee and the K1600 facility that is there, 
another facility located in Oak Ridge. And we feel that will 
allow us to continue to learn what we need to learn until such 
time as we need to build out a large national security train to 
do domestic uranium enrichment with U.S. only technology.
    In the meantime, we have also----
    Ms. Kaptur. You are saying it is after 2040?
    Mr. Klotz. That is when we will have the need for that, so 
we would have to--and I would have to get you the specific 
dates when we would have to start thinking about developing 
that.
    And you are right, now that we have the opportunity to do 
that we also want to consider the possibility of using smaller 
centrifuges to get to the same objective. And we will do that 
work at Oak Ridge as well.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. And I want to 
thank each and every one of the witnesses for being here today 
and for your outstanding service to our great Nation.
    General Klotz, it is always good to see you, sir. Before I 
begin my questions I do think congratulations are in order for 
the entire NNSA team. It was reported I believe last week that 
the completion of the dismantlement of the retired W69 warhead 
at Y-12 is complete. Thank you very much. That is the way it is 
supposed to work.
    My first question to you is usually about the same subject, 
this Uranium Processing Facility. The UPF at Y-12 is obviously 
very important to me and I think to our country and its 
national defense. Will you please give an update on the status 
of the design process and any details that you can give us on 
the status of the project as we ramp up for construction? And, 
specifically, what do you plan to accomplish in fiscal year 
2017, sir?
    Mr. Klotz. Thank you very much. And I think the Secretary 
showed you a chart this morning in the course of the hearing 
which lays out, I think, in great detail the approach that we 
are taking for constructing a uranium processing facility, the 
objective of which is to get us out of Building 9212, which you 
visited many times, sir, at the Y-12 complex by the year 2025 
at a cost cap of $6.5 billion.
    So what we have done, again, at one point we were thinking 
about building a big box to house everything that was in that 
facility and move it in. And as a result of ideas that were 
conceived in the NNSA and DOE and thoroughly studied by a red 
team, chaired by Dr. Thom Mason, who is the director of Oak 
Ridge National Laboratory, we have now come up with what is 
known as the modular approach, where we are segregating various 
activities that need to be performed to process uranium by 
hazard category and by security category, placing them in 
different buildings. And of course, there is a different cost 
structure associated with the level of security and the level 
of safety that you have to achieve.
    The first subproject under the redesigned approach was 
called the Site Readiness subproject. I had the great pleasure 
of joining you when we cut the ribbon on the completion of that 
last year. Again, as I said in my opening statement, under 
budget and on time.
    We are now in the midst of work related to the site 
infrastructure and services subproject, which will continue to 
prepare us for the actual construction of the UPF facility once 
we are ready to do that. The project is actually under way, 
will cost about $78 million, and we expect to complete that in 
April of 2018. So a lot of the work in 2017 will be devoted to 
that.
    We are also continuing the process of the design for the 
three main facilities, two of which are nuclear facilities, the 
mechanical and electrical building, the salvage and 
accountability building, and the main process building. So that 
will also continue over the course of the next several years. 
And we will also be getting ready to do the next two major 
subprojects, one called Electrical Substation and also one 
called Site Preparation and Long Lead Procurement.
    Mr. Fleischmann. Thank you, sir. I would like to ask you a 
question about high-risk facilities. I was pleased to see that 
NNSA's budget request increased funding for the high-risk 
excess facilities.
    Would you please explain what can be accomplished over the 
next few years, especially and specifically at Alpha 5, at Y-
12, described as the worst of the worst?
    Mr. Klotz. Well, one of the things that we do have in this 
budget, Congressman, is we put in some additional funding to 
ensure the safety and security of Alpha 5 as well as Beta 4, 
two major facilities at Y-12 which are no longer in use. 
However, they still exist. Our employees have to go in there 
from time to time to make sure that they are safe and secure 
and there are risks associated with them doing that, risks from 
fire, contamination, water intrusion, and so on. So we had 
asked for additional money in this particular budget 
specifically going to carry out a very structured, disciplined 
approach to making sure that we have done the work that is 
necessary to sustain those buildings for the long-term.
    As I think the Secretary testified this morning, one of his 
directives that we are carrying out, not only at NNSA, but at 
the other parts of the DOE, is to arrest the growth of deferred 
maintenance. One of the things I learned in my time in the 
military is in an era of constrained budgets, the first dollar 
will always go to mission and to people. And the dollars that 
are necessary to sustain infrastructure, to do repairs, whether 
it is roads or facilities, always gets pushed to the right; it 
gets deferred. And there is a tendency to want to take risk in 
that area. Well, at some point you can only take risk for so 
long until you get to a tipping point, and literally, at places 
like Y-12, the ceiling starts to cave in which will shut down 
operations for extended periods of time.
    So with the support of the Congress, last year in the 2016 
enacted budget, we were able to basically hold the level of 
growth in NNSA's deferred maintenance to level. And then there 
will be a slight downturn in the overall level of deferred 
maintenance which quite frankly right now is at $3.7 billion 
for the NNSA.
    Mr. Fleischmann. Thank you. Mr. Chairman, I will yield back 
to round two.
    Mr. Simpson. Mr. Frelinghuysen.
    Mr.  Frelinghuysen. Gentleman and Miss Harrington, we had 
Secretary Mabus in this morning and Admiral Richardson, CNO, 
and so I would like to get some sort of updates on your 
characterization of where we stand, Admiral Caldwell, with the 
OHIO-class subs. This Committee makes substantial investments, 
and obviously they are matched on the Department of Defense 
side. Where are we?
    Admiral Caldwell. Yes, sir. First off, sir, thanks for the 
question and thanks for the great support that Naval Reactors 
has enjoyed from this subcommittee. It has enabled us to be 
successful and it will be important to our future success.
    My responsibility for OHIO-Class replacement is the design 
and the way ahead in the engine room and the reactor plants. 
The simple answer is we are on a great track. We are on track 
to support the Navy's goals. And the Navy's goals are to start 
construction of that national asset in 2021, to complete that 
construction in 2028, and send that ship to sea in 2031. Now 
that is a fairly aggressive timeline for construction. We are 
building a ship that is about two and a half times the size of 
Virginia, and we are going to do it in seven years, the same 
time span to build the first VIRGINIA-class submarine.
    On the Naval Reactors side, this year and with the support 
of the subcommittee's past support to us, we are moving forward 
on the system component and equipment designs, and final 
designs that will allow us to do heavy equipment procurement in 
fiscal year 2019.
    Two other big portions in this are the development of the 
electric drive system, which we will get to a full-scale 
testing at the end of fiscal year 2017. That will be a very 
important milestone. And then the other big component in OHIO-
Class replacement is the life of the ship fuel. That ship will 
be loaded with fuel once and will last over 40 years without 
ever refueling. And we are on a great track to do that and 
start manufacturing the core in about fiscal year 2019. And it 
will take about five years to develop that core.
    So, again, thanks to your success we are on a great path to 
meet the Navy's timeline and our fiscal year 2017 budget 
submission allows us to continue that path.
    Mr. Frelinghuysen. This Committee under Chairman Simpson, 
and certainly on the defense side, we are supportive, but there 
are some pretty extraordinary costs involved here. How do you 
stay on top of some of those costs and what is the estimate for 
the first OHIO-class Replacement sub? It is pretty high.
    Admiral Caldwell. Well, the first will be on the order of 
about $9 billion and follow up about $5 billion. Those figures 
are being, you know, looked at closely. In regards to the 
design work that I am responsible for, the total bill is about 
$1.7 billion on the DOE side, and that enables me to do all of 
this design that gets the electric drive to provide the stealth 
that we need to operate this class out into 2080, and allows us 
to do the detailed design work to develop this life of the ship 
core. That is not a trivial undertaking. But we are on an 
excellent path with periodic program updates to meet. My staff 
is out providing the regulatory oversight and the management 
oversight to make sure that these projects are on track. We are 
very involved. And I think, again, thanks to the support of the 
Committee, the fiscal year 2017 budget is going to allow us to 
continue that. So we are exactly where we need to be on the 
Naval Reactors side.
    Mr. Frelinghuysen. A few years ago--and I do not include 
you in the group--people were rather dismissive of what the 
Russians are doing and the Chinese are doing, like whatever 
they had in the way of subs could never match our capabilities. 
But in reality we find in open sources Russians ginning up 
their game. They have, you know, some pretty extraordinary 
capabilities. I assume the Chinese are not slowing down their 
building of subs, both nuclear and diesel.
    Any observations besides, obviously, the Navy's view that 
you will always have overwhelming superiority? Is there any 
recognition, especially since we made two VIRGINIA subs every 
year? We want to continue that. But the end product we are 
looking at in terms of the replacement, whether that will be a 
match for the future, for future situations.
    Admiral Caldwell. A couple of thoughts on that, sir. First 
off, I think what you are seeing in Russia and China is the 
understanding that a Navy brings value to their national 
interest, a strong Navy in particular. And they have also seen 
the advantage of an undersea Navy. You see Russia developing 
highly capable submarines in smaller numbers, and you have 
certainly seen China develop larger numbers of submarines. Our 
responsibility in the Navy is to understand the capabilities 
that are out there in the world and to make sure that our 
capabilities are overmatched, or that we overmatch that 
capability. And I think we are on a great path to do that with 
the VIRGINIA-class submarines and the ability to modernize 
those throughout their life. The OHIO-Class replacement design 
was undertaken with understanding the challenges that she will 
face over her life, including stealth weapons requirements, the 
reliability, the endurance, all of those things factored in. 
And, again, I think we are on a great path to deliver exactly 
what the Nation needs on schedule.
    Mr. Frelinghuysen. Thank you for exuding that confidence. 
Maybe just put in a plug, I understand that the Washington 
Carrier group is out there on maneuvers. Is that right? Was 
that the aircraft carrier we were going to retire? So now it is 
up and running?
    Admiral Caldwell. It is back on the East Coast, sir, and it 
will be refueled starting next year. We were able to, due to 
some great work with support by our DOE labs, and Naval 
Reactors which enabled a carrier swap that positioned the 
Ronald Reagan as the forward deployed carrier in Japan.
    Mr. Frelinghuysen. We have got to get moving on the forward 
too. Thank you.
    Admiral Caldwell. And we already are, sir.
    Mr. Frelinghuysen. Okay, good. Thank you, Mr. Chairman.
    Mr. Simpson. I hate to do this, but we have nine minutes to 
vote. We have started actually trying to constrain it to the 
time allowed so the first vote doesn't go on for 45 minutes. So 
we are going to have to leave for just a minute, if you could 
stay around. I think we have two votes, is that right? We have 
two votes and will be back right after that. I would encourage 
Members to come back as soon after that second vote as we can 
so that we don't have these ladies and gentlemen sitting around 
all day when they have important work to do. We will be 
recessed for a few minutes.
    [Recess.]
    Mr. Simpson. We will be back in order.
    Representative Roybal-Allard.
    Ms. Roybal-Allard. Deputy Administrator Harrington, last 
year you spoke to the merits of the Nuclear Smuggling Detection 
and Deterrence program, which is at the core of our strategy to 
deter, detect, and interdict illicit international trafficking 
in special nuclear and other radioactive materials. In the 
fiscal year 2016 budget hearing you explained that the reason 
for the roughly 6 percent decrease in a funding cut from fiscal 
year 2015 was due to the success of the program and the ability 
for our partners to be self-sustainable and take responsibility 
of their own operations and maintenance. This year's request is 
nearly level to the fiscal year 2016 enacted level even as 
there have been reported cases of radiological material going 
missing in recent years, including most recently in Iraq.
    Are you confident that the current funding levels will 
reinforce our global nuclear security infrastructure in the 
face of today's threats? And how does the NNSA help ensure that 
its self-sustainable partners are preserving the high standard 
for detecting radioactive materials that the NNSA holds?
    Ms. Harrington. Thank you very much for your question. Yes, 
the Nuclear Smuggling Detection and Deterrence program is key 
to our counter-nuclear smuggling efforts. We have a high degree 
of confidence in the capabilities of the program, in part 
because we continually are reviewing and realigning where 
necessary.
    We have gone through two strategic reviews in the last 4 
years. And one of the conclusions from those reviews is that 
depending on the geographic and other considerations that we 
have to take into account, diversifying the technologies, not 
just the fixed detectors, but mobile vans, backpacks, handheld 
detectors, have to be designed as part of an overall suite of 
capabilities. Included in that suite of capabilities is our 
collaboration with both the law enforcement communities in the 
countries where we work as well as intelligence communities, 
all of which contribute to a multilayered defense.
    You talked about sustainability. That is absolutely key 
and, if anything, it is the dog and not the tail of this whole 
effort because it is the ongoing commitment with each of these 
countries, their ability to work effectively with their 
neighbors and within their regions that actually builds the 
global ring of security. So we pay a great deal of attention to 
that.
    And what we never intend to do is simply build a capability 
and then drop it and walk away. We build networks to sustain 
professional interaction among these capabilities and to 
provide continuing education, if you will, training, and 
updating, both of skills and equipment. We are moving more into 
doing a variety of tabletop and field exercises to really push 
the limits even more.
    I hope that answers your question.
    Ms. Roybal-Allard. How do you prioritize which countries to 
work with and what sorts of factors do you look at when 
considering new partnerships? And what new countries do you 
expect to partner with in fiscal year 2017?
    Ms. Harrington. So the prioritization of countries I can 
speak about generally, but as you surely appreciate, a number 
of our considerations would be classified, but we could give 
you a more detailed briefing on what some of those 
considerations are. Clearly, the presence of established 
smuggling routes, the presence of nuclear and radiological 
materials, the stability of the country or regions in which we 
see these materials, and other elements are part of a package 
of considerations that we take into account in our selection 
process.
    Ms. Roybal-Allard. Okay, thank you.
    Administrator Klotz, the Stewardship Science Academic 
Alliances Program and the site stewardship Minority Serving 
Institutions Partnerships Program were consolidated into one 
program in fiscal year 2016. This action was taken to improve 
the effectiveness of these programs and to encourage additional 
partnerships among minority-serving institutions.
    Can you please provide an update on how this restructuring 
is doing, how the program is specifically working with 
Hispanic-serving institutions to get the next generation of 
Hispanic youth excited about the STEM fields, and if you have 
seen an increase in the partnerships of minority serving 
institutions?
    Mr. Klotz. Thank you very much for that question and let me 
take the specific response in terms of the numbers for the 
record, if I could. But just let me underline just how 
important it is to us in the areas in which we have reached out 
in all regions of the United States to bring minority serving 
institutes into our programs for internships, for small 
activities, but also support to various academic institutions 
in building curriculum and providing scholarships and work 
opportunities for people in minority serving institutes.
    Just last year, we developed a program for training 
students from minority serving institutes, largely in the 
Southeast United States for cybersecurity, which we think is 
going to be one of the most important fields not only for NNSA 
and for the Department of Energy, but also for the government 
and commercial operations in general. Everywhere I go I make a 
point when I visit our sites to meet with the people who 
support those programs and it is something we are absolutely 
committed to.
    Ms. Roybal-Allard. Do I have time for another question?
    Mr. Simpson. Yes.
    Ms. Roybal-Allard. NNSA's Radiological Security subprogram 
works to secure certain radioactive sealed sources located in 
soft target sites such as hospital or universities. And this 
work reduces the risk of terrorists acquiring radioactive 
material that could be used to make a dirty bomb.
    The NNSA states that fiscal year 2016 funding will be used 
to complete security upgrades for 95 domestic buildings 
containing radiological material. For fiscal year 2017 your 
budget request includes funding for only 45 buildings. There 
are 225 additional buildings planned to complete security 
upgrades between fiscal year 2018 and 2021.
    Why does the funding request include only 45 buildings and 
how do you plan to complete the 225 remaining requests between 
fiscal year 2018 and 2021?
    Ms. Harrington. Thank you. So, radiological security is a 
high priority for us. The schedule that we have is one that we 
believe is realistic and what we need to emphasize is that all 
of these buildings in the United States meet Nuclear Regulatory 
Commission requirements for licensing these sources in the 
first place. So this is an augmentation above and beyond those 
baseline commitments.
    Part of the shift in funding is an increase in the amount 
of funding that we are putting into what we call our 
alternative technologies program. And this is a pathway to 
permanent risk reduction because there are alternative 
technologies available, for example blood irradiators are often 
found in hospitals and other organizations and could be 
replaced by x-ray-based technology, so you do not even have to 
have the source in the facility in the first place. So we are 
trying to encourage both new technology development as well as 
greater utilization of existing technologies to eliminate some 
of these classes of radiological sources altogether.
    Ms. Roybal-Allard. Thank you.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thank you, Chairman. Thank you for your time 
today. I have a couple of questions.
    Ms. Harrington, negotiations on the Joint Comprehensive 
Plan of Action, JCPOA, have concluded and the Department of 
Energy is expected to play some kind of role in implementing a 
program. However, your responsibilities for implementation are 
unclear.
    Is there any funding in your budget request to support the 
nuclear agreement with Iran? I'm asking the wrong person the 
question, I'm assuming. And, B, what is the role of DOE going 
forward and why should Congress support these particular DOE 
activities?
    Mr. Klotz. Thank you for that question. It is an 
extraordinarily good question. And I believe, as Secretary 
Moniz testified this morning, there are a number of ways in 
which the Department of Energy and NNSA are associated with the 
Joint Comprehensive Plan of Action.
    Probably the most important way in which we are involved is 
our continuing close relationship with the International Atomic 
Energy Agency, which is headquartered in Vienna. As you know, 
under the JCPOA they have the lion's share of the 
responsibility for monitoring Iranian compliance with every 
provision of that agreement. As I said, we have a long 
association with them. We provide training to their inspectors. 
In fact, as the Secretary mentioned this morning, every IAEA 
inspector since 1980 has taken a course in nuclear material 
measurement at Los Alamos Laboratory in addition to 
professional continuing education and a whole host of areas.
    We also provide technology, electronic seals, tamperproof 
cameras. There is also a piece of equipment that is being 
deployed for the first time in Iran as part of the JCPOA called 
the OLEM, the Online Enrichment Monitor, which you can fit 
around a pipe and actually measure the enrichment level of 
uranium gas which is flowing through that pipe to ensure that 
it is not being enriched beyond the levels that are permitted 
under the JCPOA.
    In terms of specific additions to the budget, for the NNSA 
budget, in addition to that work which we continue to do anyway 
in international safeguards, there is an additional 13 million 
that we are requesting. That will largely go to pay salary and 
travel for those people who are involved in the redesign of the 
ARAK reactor, A-R-A-K reactor, to ensure that it meets our 
nonproliferation goals and cannot be used to produce plutonium, 
and that we also have some additional work in other areas.
    Mr. Valadao. I am glad you brought up the IAEA. The 
Government Accountability Office recently released a report 
that states the International Atomic Energy Agency, the IAEA, 
the agency responsible for verifying and reporting back to the 
international community on Iran's compliance, the quote is, 
``faces an inherent challenge to detecting undeclared nuclear 
materials and activities.''
    Do you believe the verification measures that exist will be 
sufficient for the IAEA to monitor compliance with the 
agreement? And what will be the greatest challenges, and are 
there any opportunities to improve the limitations of current 
nuclear verification techniques?
    Mr. Klotz. I do believe that the verification measures that 
have been put in place through the JCPOA are absolutely right 
for the agreement. And, in fact, to be perfectly honest, when 
we came out with the agreement, many of us were very surprised 
and very impressed with the level of verification that was 
written into that particular agreement. It goes well beyond any 
other agreement that we have struck with the IAEA has.
    As the Secretary mentioned this morning, we essentially 
will monitor every aspect of the Iranian fuel cycle from the 
mining and milling of uranium all the way to its disposition in 
the end. If there is diversion of material to other uses, that 
is how it will become obvious when you see that in how the fuel 
cycle flows beyond onsite inspections, beyond all the 
technological monitoring that we talked about.
    Again, as the Secretary said, it is always a challenge to 
find those areas which are at undeclared facilities in large, 
open spaces. We also have very capable American and allied 
intelligence capabilities that will also be paying attention to 
that.
    Mr. Valadao. And just one more on cybersecurity. Mr. 
Administrator, as you know, the Department of Energy has 
experienced a number of data breaches in the past. The data 
breach last summer which involved files held by the Office of 
Personnel Management was a huge failure for the Federal 
Government. The performance measures in your budget request 
consistently say the cyber program is effective.
    What are you doing to protect employees and obviously, most 
importantly, our national security information? Do you believe 
that the measures put in place thus far are sufficient?
    Mr. Klotz. This is one of the greatest challenges I think 
the Federal Government faces, whether it is on the executive 
branch or the legislative branch, and also commercial industry 
faces, and that is maintaining the security of its cyber 
networks and its databases. It seems like we always have to 
work to get one step ahead of what the state of the art is for 
those who would try and penetrate our systems. We take this 
very, very seriously, one for the protection of our people and 
their personal identifying information, to guard against the 
risk of that being compromised and leading to identity theft, 
but also we guard some of the most important secrets that the 
U.S. Government has in the nuclear area. So there is always 
more that can be done.
    Mr. Valadao. Thank you. Thank you, Chairman.
    Mr. Klotz. I might add to that, if I could, one of the 
initiatives that Anne Harrington, I think, has actually 
spearheaded both for the U.S. Government and the international 
community is to draw that connection between the physical 
protection of nuclear facilities, including civil nuclear 
plants, and protecting their vulnerability to cyberattack. And 
she has led the charge in getting that onto the international 
agenda of concerns.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, good afternoon. I 
want to return to some of the questioning that I had interacted 
with and posed to the Secretary this morning regarding just the 
architecture of our nonproliferation efforts.
    You have a slight decrease in the budget. I need to hear 
some explanation for that please but more than that, is the 
current construct, the current ecosystem multiagency effort to 
share information, to think critically, to project out what the 
emerging threats will be in this regard so that we are all 
working toward increasing the probability as close to zero as 
possible of some incident in this regard? Are those efforts 
ongoing? The Secretary and I, as well as the chairman had 
spoken about following up to the March report, perhaps with you 
in another setting to review some of the finer points in that 
regard but in terms of generalities, is the current ecosystem 
of nonproliferation, the cross-agency cooperation, our ability 
to think critically about emerging trends in this regard? Are 
we doing enough? Are we safe?
    To me, everything else that we are doing in the building is 
inconsequential if we do not get this right, frankly.
    Mr. Klotz. Thank you and I did watch with rapt attention 
through the miracle of modern communication technology this 
morning and of course, we cannot hold a candle to the Secretary 
in articulating in a clear, concise and compelling way this but 
let me try. On the issue of interagency coordination and you 
and I have discussed this before and we certainly need to have 
additional discussions. I think at the moment, my personal view 
is that we have very good interaction at the interagency level 
between the various agencies which are responsible for 
nonproliferation.
    DOE, State Department, Homeland Security, the Intelligence 
Committee, the Department of Defense coordinated by the 
National Security Council which is, by the 1947 law, that is 
their responsibility to do that.
    But I think there is also something that is unique about 
the current situation. The President made a speech in 2009 in 
which he clearly stated that securing nuclear materials and 
dealing with the threat of nuclear proliferation and the threat 
of nuclear terrorism was a national priority.
    That sort of galvanizing guidance, I think, has seized all 
of us who work in this particular area so we know we should and 
we can work together on that.
    In terms of setting up formal structures, I have often 
thought that communities of interest in which people are drawn 
together because they share a common goal, a common objective, 
or a common need to pool resources is one of the greatest 
motivators in terms of making people work together. Did you 
have any----
    Ms. Harrington. I would just add very briefly that not only 
do we have a very vibrant interagency process, and one that I 
would have to say works. I was recently involved in an issue 
that in fact involved two separate interagency policy groups 
and so the White House said: ``This is silly, everybody get 
together in one room. Let's figure out whether we can come to 
consensus.''
    We came to the consensus at the Assistant Secretary level 
which means that we do not have to now bother all the deputies 
and principals with a decision because we were able to broker 
that at our level and that really is the point, to get that 
engine going and real communication on substantive issues, but 
we also work individually. For example, the Defense Threat 
Reduction Agency has been a long time partner of ours. Ken 
Myers will be retiring soon, stepping down as the director of 
that agency. He was in my office yesterday so that we could, as 
our last act together, sign an MOU between our two 
organizations on how they will work together into the future 
and coordinate specifically.
    Mr. Fortenberry. Let me ask you this, one of the challenges 
of holding a congressional seat, of being in public office and 
yours as well is to take the legacy of what has been done and 
try to retranslate it in order to meet emerging needs, 
creativity, entrepreneurship. Have there been gaps identified 
in the current construct of our nonproliferation efforts, as 
they exist across basically six agencies or are there 
duplications that, you referenced one there, that do not make 
sense that can be informally addressed?
    This is what I worry about and again, I look forward into 
going deeper into the report that you have appropriately issued 
last year and that may better answer, but to the degree that 
you can address this, I would appreciate it.
    Ms. Harrington. Well I think that one of the issues that we 
would like to come back, for example, and discuss more is 
emerging technologies and some of the other things that we 
believe we have to be prepared to meet flexibly and responsibly 
in the future.
    Mr. Fortenberry. Yes, there are enrichment technologies, 
for instance, that are emerging that would make this quite 
simpler than the vast infrastructure that is now required and 
things of this type is exactly what I am talking about.
    Ms. Harrington. Correct.
    Mr. Klotz. Additive manufacturing is another area that both 
has enormous promise for allowing us to do a lot of our 
activities less expensively, faster, by cutting down how long 
it takes to develop a prototype, but by the same token, there 
is another side of that coin which we can discuss when we get 
together.
    Mr. Fortenberry. The Secretary proposed, and I gave this 
example, that with the advent and the movement towards small 
modular reactors that this technology is suddenly smaller, 
scalable, duplicatable more readily. Now he, you know how he 
is, he is very respectful and polite and he countered the 
argument by suggesting that that actually takes away the need 
for advanced enrichment capabilities that could be diverted 
toward more improper purposes but nonetheless, it is the 
broader problem of advancing technology without there being any 
singular controlling entity, I think leaves us vulnerable.
    Ms. Harrington. I was actually really happy that you raised 
that question.
    Mr. Fortenberry. Oh, good.
    Ms. Harrington. Because we have a very close working 
relationship with the Nuclear Energy Office, which, as you 
know, has the lead for advancing small modular reactor 
competitiveness and design in the United States so in 2014, we 
sat down and looked at these reactors and said: ``Well that is 
great, but why do we not do a study on the implications for 
safeguards and security of these new designs?'' And so we have 
that study and we would be happy to share it with you and the 
good news out of the study is that it does not create 
additional problems compared to existing reactors and in some 
cases, particularly for the models that are intended for 
placement underground, subsurface designs, it actually adds to 
the security so we would be happy to----
    Mr. Fortenberry. Yes, please.
    Ms. Harrington. But we tried to, within the Department, to 
bring all those streams together and do the thinking as a 
group.
    Mr. Fortenberry. One more quick question, Mr. Chairman. In 
that regard, who drives that narrative? You rightly pointed out 
the President's projection of policy, his vision and I 
completely agree.
    In fact, I was one of about 15 members who were invited to 
the White House very early on, we all rode on a bus and we 
could not figure out what was the binding narrative between us 
because it was people from all types of philosophical 
dispositions. We finally figured it out, in fact Senator Markey 
told me because he was on the bus, that this is everyone who 
voted against the India Civil Nuclear Trade Deal so there was 
only a handful of us.
    So I want to commend the President for this because this 
was important work to reestablish this ideal for the 
international community that at least gathering loose, 
unsecured material was something that we could all do and then 
it is a gateway to the broader considerations about nuclear 
security worldwide.
    But in terms of specific emerging technology and who drives 
the culture of the policy discussion on that? Do you do it? 
Does the National Security Council do it? Does it happen 
organically, informally? Is there a hierarchy of process here? 
I am curious so--should I do it?
    Mr. Klotz. The answer to all of that is yes, all of the 
above. It is a community of interest; there truly is a 
community of interest that involves not just those agencies of 
which we are a part of that have an abiding interest in these 
issues.
    It involves interested members of Congress and their staff. 
It involves the Non-Governmental Organizations, the NGOs, some 
of whom are sitting here who drive the thinking, the thoughts, 
the ideas forward in ways in which we can make the world a 
safer place with respect to nuclear proliferation and 
terrorism.
    Mr. Fortenberry. And you are satisfied that that 
collaborative process, without a strict hierarchy, if you will, 
actually is the right, proper, robust mechanism by which the 
spectrum of emerging threats or the ability to think 
constructively and creatively about what we are doing that is 
leaving us potentially vulnerable, what could be updated, what 
could be let go of, what could be created is actually 
occurring, you are confident with this process?
    Ms. Harrington. Yes.
    Mr. Fortenberry. All right, thank you.
    Mr. Simpson. Before I forget, could you get a copy of that 
report to all the members of the Committee?
    Mr. Klotz. This report here?
    Mr. Simpson. Yes, sir.
    Mr. Klotz. Yes, sir. I am happy to do that.
    Mr. Simpson. Thank you. Admiral Caldwell, your budget 
request reports that the Legacy Spending Fuel Facility will 
have to operate for another 5 to 12 years after the new 
facility comes online in order to provide spending fuel 
examination capabilities. Why were the examination capabilities 
not included in the design of the new facility? Naval Reactors 
was working with the Office of Nuclear Energy on a partnership 
for the new spent fuel examination facility, those plans have 
not been advanced. What is the status of this effort and could 
a joint project meet the needs of both programs?
    Admiral Caldwell. I will answer the first part, sir, and 
then I might come back to just drill in a little bit on the 
second one so that I am clearly answering your question. The 
Spent Fuel Handling Project is designed to replace a 55-year-
old facility in the extended core facility that is out in 
Idaho.
    That facility is aging, it has some infrastructure 
challenges there. It could limit our ability to do what the 
Navy needs in terms of receiving, packaging, and interim 
storage of spent fuel and additionally, it cannot accommodate 
the longer fuel that we processed that comes out of the NIMITZ-
Class carriers so we are on a steady drumbeat of refueling the 
NIMITZ-Class carriers so that they can get out to their roughly 
50 year lifetime.
    So we have been trying to do this for a number of years but 
due to budget shortfalls, we were never able to undertake it. 
Now thanks to the support of this subcommittee, we have been 
able to move out on the plan to recapitalize that expended core 
facility and we decided to do that in phases. The phasing was 
necessary to fit within the budget constraints that we had to 
deal with.
    I think it is important also to understand that there are 
several aspects of work that go on at the expended core 
facility today. One is that receipt, handling and packaging of 
spent naval fuel for interim storage. The other is to take 
expended cores from reactor plants and go do analysis. That 
analysis is very important because it allows us to prove and 
understand whether all of our design considerations play out 
exactly the way we wanted them to. We learned a lot 
essentially. We also do examinations of materials that are 
tested in the advanced test reactor. We have materials that we 
want to use in future cores. We eradiate them in a flux reactor 
and we analyze what happens to those and that allows us to 
build things for the future.
    A great example there is the OHIO-Class replacement fuel. 
All of that research and study is validated by what happens and 
what we see in those test samples so the bottom line, sir, is 
that we approach this in a phased approach and the phase most 
important to us is to be able to process this NIMITZ-Class fuel 
because we did not want to impact the Navy's ability to operate 
the fleet.
    We had to be able to bring the carriers in, offload the 
fuel and through a steady drumbeat, bring that fuel out and 
process it so we are on a path to recapitalize just that one 
aspect of it first, the spent fuel handling, and now we will 
go, we will start the construction in 2019 and we will start 
doing the operations with that longer fuel from the NIMITZ-
Class in 2024 and then we are also working on the next phases 
of this to go recapitalize those expended core analyses and 
also the work that we need to do in hot cells and the work that 
we need to do to examine samples that we test in the advanced 
test reactor.
    So that is a fairly complicated set of things that we have 
to do but the spent fuel handling is only one phase of it and 
we are on a path to do that.
    Now your other question I believe was is there a 
partnership and I think you mentioned the INL. I just want to 
make sure that I understand that before I launch off on an 
answer.
    Mr. Simpson. You were looking at one time with the Office 
of Nuclear Energy on a partnership for a new spent fuel 
examination facility, but those plans seem to have not 
progressed.
    Admiral Caldwell. Well, what we did, sir, we looked at what 
other facilities were around which included some of the 
facilities out at the INL and fundamentally, when we got done 
with it and doing the analysis of different courses of action, 
this was the best course of action for us, because there would 
be too many modifications required to existing facilities.
    Mr. Simpson. And that goes to the difference in fuel?
    Admiral Caldwell. The difference in fuel, the difference in 
terms of the amount of things that we have to process. There is 
a lot that goes into it and the existing facilities just could 
not do what we needed to do in terms of production capacity and 
so this is the best course based on the budget that we had and 
based on the outcome we needed to be able to service the Navy's 
needs.
    Mr. Simpson. Okay. Naval Reactors continues to spend 
approximately $130 million per year, approximately 30 percent 
of your infrastructure budget on the spent fuel management 
program. The Idaho Settlement Agreement requires Naval Reactors 
to transfer all of its spent fuel to dry storage by 2023 and to 
move all spent fuel out of the State by 2035. Since DOE's 
overall spent fuel strategy is no longer valid, it has changed 
substantially over the years and the State seems supportive of 
Nuclear Reactors continued presence, there may be value in 
updating the agreement between the State of Idaho and the Navy 
sooner rather than later. What are your plans or do you have 
plans to approach the State of Idaho about renegotiation of the 
settlement agreement.
    Admiral Caldwell. First off, Mr. Chairman, we are in--
everything that I can control within my program is tracking to 
meet our agreement with the State of Idaho.
    Mr. Simpson. But it is what you cannot control.
    Admiral Caldwell. That's right, sir, the challenge is the 
National Repository for spent fuel and therein lies the 
challenge. We have a program now that takes our spent fuel, 
prepares it and packages it and puts it in interim dry storage 
which is safe and secure. Also, we are in close discussions, at 
various times throughout the year, reporting to the governor 
and the State of Idaho that we are meeting our responsibilities 
in terms of our agreement. We are going to have to just keep 
working on that as we go forward. At the same time, I think the 
Nation needs to deal with how we are going to handle this spent 
fuel and until we get there, my responsibility is to do that 
work safely. If you approve my budget request the money that 
you are giving me in fiscal year 17 will allow me to do what I 
need to do safely to store that in an interim manner, while we 
try to figure out how we are going to go in the long run.
    Mr. Simpson. Well, I appreciate that. To tell you the 
truth, I think that the people of Idaho are very supportive of 
what Naval Reactors is doing and I do not hear any complaints, 
and frankly, that is kind of unusual in my line of work and in 
yours probably.
    Admiral Caldwell. Sir, no doubt we get great support from 
the State of Idaho and we are very thankful for that and we aim 
to keep it that way.
    Mr. Simpson. Well, you do a good job out there and we 
appreciate that, but at some point and time, this settlement 
agreement that was done, I cannot remember how many years ago, 
1995----
    Admiral Caldwell. 1995.
    Mr. Simpson. So it is what now? Twenty years old, 21 years 
old? Who knows what the future is going to be 20 years from 
now, you know what I mean? You do the best you can and 
circumstances change and at some point in time, the State of 
Idaho, and I suspect all of the States that have had agreements 
with DOE that are older, are going to have to sit down and say, 
``Okay, now what do circumstances require that we do and still 
meet the demands of the State and the needs of the Federal 
Government and the Navy and others?'' And that is always a 
tough thing to do because the people in Idaho are insisting 
that we follow the governor's agreement to the letter of the 
law. They are the ones who took the governor to court trying to 
overturn that agreement to start with, and now they insist that 
we follow it to the letter and we are down the road 20 years 
and circumstances have changed; that is the reality. We know 
they will change over the next 20 years, but I appreciate the 
work that you have done out in Idaho and you do a great job and 
we look forward to working with you and to complete your 
mission.
    General Davis, the GAO previously found that because NNSA 
took an extended period of time to prepare a valid cost 
estimate for the B-61 Life Extension Program, that life 
extension program now has a little margin in the schedule left 
to ensure the U.S. commitments to NATO will be met.
    The new scope for the W-88 refurbishment was approved by 
the Nuclear Weapons Council in November 2014 and the 
Subcommittee still has not been provided the cost estimate. 
What improvements have been made to the way that you estimate 
life extension programs? Why has it taken so long to prepare a 
valid cost estimate for the W 88 and will the extended time it 
has taken to verify the cost have an impact on the 
refurbishment schedule? And do you anticipate the W 88 cost to 
rise significantly above the original cost estimates of $.4 
billion.
    General Davis. Thanks for that question, Congressman. 
First, with regard to the B61-12, that program is currently 
completing its last year of full-scale engineering and 
development and we are on schedule and on budget to produce our 
first production unit in March 2020.
    This year was a good year for the B61-12. We conducted 
three drop tests and we also did compatibility testing with the 
F15, F16, B-2, and F35. In fact, I was able to actually witness 
the first full-scale integration test of the B61-12 out in 
Tonapah and it went very well and while I cannot get into 
specifics, I will tell you that right now we are very happy 
with where that program is as is the Air Force so that is with 
the B61-12.
    With regard to the W88, essentially through our 
surveillance program, we identified an issue with the 
conventional high explosive where it was not aging as we 
expected to. In order to make sure that that weapon continued 
to meet its military requirements, we made the decision, 
working through the Nuclear Weapons Council that we need to 
replace that conventional high explosive. Obviously that was 
something that just happened in the last about a year. Going 
through our discipline process, we will come up with a new cost 
estimate, our first cost estimate for that program in September 
of this year and then we will match up the existing Alt 370 
Program, which was working to put a new arming, fusing, and 
firing capability into that weapon along with the conventional 
high explosive refresh and we will match up those programs in 
March of 2017 in Phase 6.4 which is our production engineering.
    Mr. Simpson. In order to make sure that a more affordable 
design that meets military requirements was not overlooked, the 
fiscal year 2016 Committee directed the NNSA to conduct an 
independent validation of the alternatives. The NNSA selected 
for the long-range standoff warhead which is in the early 
stages of development. When do you expect the results of that 
independent validation to be available? How many alternatives 
did you consider? And were there any that were less expensive 
than the preferred alternative you are now developing? And do 
you believe that the process the NNSA uses to analyze 
refurbishment alternatives is mature and comprehensive?
    General Davis. Sir, with regard to the legislation, it 
actually asked us to have a JASON-like organization take a look 
at that. We approached the JASONs, they did not feel like this 
work was in their wheelhouse so they directed us to some other 
folks. We are currently in conversations with the MITRE 
Corporation to perform that analysis for us. We expect that to 
being hopefully later this summer.
    In terms of the program, I think we, over the last several 
years, have put a lot of discipline into it. When NNSA first 
stood up, the real issue that they had was to figure out how to 
do this stockpile stewardship program. How do we do the hard 
science to make sure that the stockpile is working as it is 
supposed to without having to run testing.
    Our first life extension program was the W76 which is now 
just over 60 percent complete so we are now taking that same 
rigor that we put into the science part of NNSA and we are 
putting it to the program management part.
    To that end, we recently hired, although we have not 
announced the candidate yet, a program executive officer that 
will oversee all of our life extension programs to continue to 
bring rigor to that process.
    Mr. Simpson. Thank you, and thanks for the work that you do 
in all of this. I know it is very complicated and important 
work.
    Ann, your budget request and there are many people on the 
floor who will look at a budget and that is the determination 
of your commitment to a particular subject matter. Your budget 
request is down, how much was it, $132 million from last year. 
That means $132 million less commitment to nonproliferation, 
according to some people.
    Mr. Simpson. Tell me why it is down, why the request is 
down, and what the implications of that are in terms of 
nonproliferation so that we can answer those questions on the 
floor.
    Ms. Harrington. Okay, thank you. The fact that we have 
dropped a few percentage points in the amount of money in the 
budget does not reflect at all any less commitment to 
nonproliferation by the Secretary, by the Administrator, by me, 
or anybody else in the organization. But, as you know, we have 
proposed a different path forward for the Mixed Oxide Fuel 
Fabrication Facility in South Carolina, a dilute disposed 
option.
    Mr. Simpson. I think I may have heard something about that 
this morning.
    Ms. Harrington. I would be surprised if you did not, but 
that is a difference of $70 million right there. And then 
trying to be good custodians of our budget, we have some prior 
year funds, which we have not been able to spend out as quickly 
as we had hoped. In our line of business, a lot depends on your 
foreign partners and their ability to absorb money at the pace 
that we hoped that they can.
    The funds that are in the budget will fully fund the 
activities that we believe we can deliver in 2017, and we have 
restored in the out-years the funding for the program that is 
implementing slower than we had hoped because we fully intend 
to be able to fulfill those commitments. So I think, on 
balance, we have a good pathway forward. We are not worried 
about being able to execute during 2017 with the funds that we 
have requested.
    Mr. Klotz. Could I just add a little bit to that?
    Mr. Simpson. Sure.
    Mr. Klotz. Everything Anne said is absolutely right. The 
good news for us last year was that Congress voted an 
appropriations bill for fiscal year 2016, and, of course, we 
are your biggest cheerleaders to get an early appropriations 
bill this year.
    Mr. Simpson. We are going to try.
    Mr. Klotz. You have no stronger supporters, Chairman, than 
for that. But there still were budget caps we had to write to 
build the fiscal year 2017 budget. We have a big portfolio that 
covers a lot of different interests and with strong 
stakeholders behind it. No one is more passionately committed 
to the nonproliferation activities that we do than myself, than 
Anne, than the Secretary, but we had to make a hard-headed 
business decision. We had to be able to cash-flow everything at 
fiscal year 2017. When we looked across the portfolio, we saw 
we had these uncosted balances, as the Secretary and Anne have 
mentioned already, and it just made business sense to us to use 
the money that was in the bank to fund these projects in 2017 
until we can tackle the fiscal year 2018 and beyond as we build 
the next budget.
    Mr. Simpson. Well, I appreciate that and I appreciate the 
important work that you do. And probably nobody appreciates it 
more than Congressman Fortenberry, who has worked on this very 
dedicatedly, and not just from the perspective of looking at 
the exact budget that we have each year to look at, but in the 
long-range overall view of how we address this issue and are we 
looking at it in the right way. I am glad that there is 
somebody on the Committee that takes a real interest in looking 
at that, so I appreciate that, Congressman.
    And Congresswoman Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. General Davis, what is 
Defense Programs doing in the area of additive manufacturing?
    General Davis. Well, ma'am, additive manufacturing is a 
great opportunity for Defense Programs in terms of future 
technologies, especially in terms of fabricating pieces and 
parts at our Kansas City National Security Campus. In the past, 
we would have to send stuff out to be manufactured. It would 
take several months to turn around. With additive manufacturing 
at that location, we can now change the forms in a matter of 
weeks, so it is a great opportunity for us to reduce costs. I 
can tell you, out at Lawrence Livermore, they are also doing 
some groundbreaking work in additive manufacturing in terms of 
how we can use it within the actual design of actual components 
that would go within the nuclear weapons as opposed to the 
nonnuclear components as well.
    Ms. Kaptur. All right, so those would give you locations?
    General Davis. Well, I would say throughout the NNSA 
enterprise, additive manufacturing is being used and, 
certainly, we are pairing all of those labs and plants together 
to leverage what they are learning at the different locations 
to get the maximum effect.
    Ms. Kaptur. Theoretically, in the future, could additive 
manufacturing actually serve to compromise security in any way?
    General Davis. Well, certainly one of the challenges with 
additive manufacturing is that, right now, it takes a lot of 
skill and expertise to build certain components within the 
weapons that we use. Once you get additive manufacturing, 
really the secret sauce is in the design, and those designs are 
held on computers, so certainly cybersecurity is an important 
element to protecting those in the future, so there is 
certainly some hard science that still goes into the work. 
Certainly protecting the cyber elements of the design is 
important, and then also there is some unique technologies that 
NNSA is developing in this area.
    Ms. Kaptur. Yes, please, Ms. Harrington.
    Ms. Harrington. So it might not surprise you that General 
Davis' group and my group are working together on this issue, 
looking at how to maximize the utilization of this important 
emerging technology but still protect it, develop 
classification guidance so that we know within the complex how 
we can responsibly use it. So we are, again, very focused on 
those issues and have a great team working together to come up 
with a solution.
    Ms. Kaptur. Without getting into too much detail, I would 
assume the areas of technology that you are particularly 
interested in, you prefer not to say.
    Ms. Harrington. We could come back and talk about that.
    Ms. Kaptur. Okay. All right, thank you.
    Admiral Caldwell, could you give us an update on the study 
of the feasibility of using low-enriched uranium in naval 
reactors that was required in the fiscal year 2016 Defense 
Authorization bill and funded at a level of $5 million in the 
appropriations bill?
    Admiral Caldwell. Yes, ma'am. We completed an initial 
report over a year ago that just laid out the high-level 
concerns or things that we would have to deal with in a low-
enriched uranium type program, and as directed in the NDAA for 
2016, we have a draft, conceptual study to answer Congress' 
question about this particular issue. That report is in routing 
for approval, and I can give you some sense of where we are on 
that.
    I think the first thing I would tell you is that from a 
strictly military standpoint, the application of low-enriched 
uranium is problematic because, fundamentally, what you are 
doing is you are removing the amount of available energy that 
you are putting into the core. Now, we have decades of 
experience in using highly enriched uranium that allow us to 
operate these reactors for longer and longer time periods. 
Again, a great example is the OHIO-Class replacement core, 
which will last over 40 years.
    Now, from the U.S. perspective, though, a low-enriched 
uranium core, or pursuit of such things, offers us the chance 
to take a leadership role. It also offers, within the Naval 
Reactors Program, a chance to balance out the demand signal on 
our technical community because, as we come through the OHIO-
Class replacement design, we are going to taper off in the 
demand signal. So to sustain that workforce, pursuing an 
advanced fuel system, which would be required for a low-
enriched uranium, would keep that team working, which is 
important to us as we get to the next generation submarine.
    Now, the conceptual study, we looked at what it would take 
to develop the low-enriched uranium core and what it would take 
to deploy. The development we estimate would take about 10 to 
15 years. It would take an advanced fuel system because you are 
trying to figure out how to load more fuel because it has less 
energy. And it would take, again, 10 to 15 years and it would 
be on the order of about $1 billion. Any work that we put 
towards that would be of value to the Naval Reactors Program 
because, again, advanced fuel-cell systems, we could leverage 
that and even use highly enriched uranium.
    The conceptual plan has several off-ramps. I talked before 
about irradiated samples that allow us to examine materials. 
The plan lays out several phases of irradiated materials that 
we would take and look at, and over those 10 to 15 years, it 
would allow us to take some off-ramps to decide whether it was 
appropriate to pursue the low-enriched uranium core.
    The conceptual study examines going after a potential use 
in a carrier core. That is a bigger core than a submarine, and 
it is not practical today to go do that in a submarine core. 
So, again, success could not be assured in this effort; 10 to 
15 years just to develop the fuel system and probably another 
10 years or so to actually deploy the fuel system, that means 
to construct it and deploy it in a ship.
    So we are several generations away, but the conceptual plan 
lays out this opportunity. And if that is the path that we end 
up going down, it would take money above what we currently have 
in our budget because we could not do it at the expense of the 
work that we are doing today to support today's fleet and the 
OHIO-Class replacement and so forth.
    So the plan lays out a conceptual plan starting in fiscal 
year 2018, I hope that answers your question, ma'am.
    Ms. Kaptur. Yes, thank you very much.
    All right, General Klotz, could you tell me, does NNSA need 
to produce any pits to support the current and planned life 
extension programs?
    Mr. Klotz. Current, no; future, yes, and so that is the 
path that we are on. The major demand signal for being able to 
manufacture pits will be when we get into what we call the 
Interoperable Warhead 1, which will most likely start off 
addressing the Air Force's need to do a life extension program 
for the current W78 warhead. In the meantime, however, we do 
not have a capability to produce pits and in great number, so 
we are in the process of doing some significant work at Los 
Alamos National Laboratory in repurposing existing facility 
space in a building called PF-4 and another building called 
Irradiation Laboratory. This year, we will begin analysis of 
alternatives, on what is known as the modular approach to 
building additional capacity at Los Alamos to begin to develop 
pits on the schedule, which the Congress has directed us to do 
in subsequent National Defense Authorization acts.
    Ms. Kaptur. Thank you, and I had one follow-up to----
    Mr. Klotz. Yes, ma'am.
    Ms. Kaptur [continuing]. An earlier issue, and that is 
dismantlements. In addition of your earlier points, is not work 
leveling at Pantex also a benefit to increasing the rate of 
dismantlements?
    Mr. Klotz. Well, with additional people, of course, 
obviously, that gives you the opportunity to level the work 
between the dismantlement and the life extension work that has 
to go on because the skill sets, in many respects, are the 
same, so with the additional 30 to 40 to 45 people at Pantex 
and the additional people at Y-12, that gives you a great deal 
more flexibility.
    General Davis. I would say, normally, we do use 
dismantlements to work to balance a workload at Pantex. In this 
case, the folks we bring on to accelerate those will be 
dedicated to that effort until that is complete.
    Ms. Kaptur. I have a final question of each of you. In 
general terms, is there any unmet scientific horizon or 
necessary workforce capability that you consider primary to 
conducting your responsibilities more ably? So science and 
workforce development.
    Mr. Klotz. Well, I will go ahead and start. The biggest 
challenge that we are facing at the moment, of course, is the 
graying--and I can say that, at my age--of our workforce, both 
on the Federal side, but, more importantly, in our laboratories 
and our production facilities. In many places we have a high 
number of people who are now eligible to retire. Many of them 
will not because they love what they are doing or they have got 
personal financial reasons why they want to continue to work, 
but they are certainly eligible to do that. So we need to make 
sure, both, again, on the Federal side and the laboratory side, 
that we are doing all the things that we need to do to recruit 
the next generation of leadership in this particular endeavor. 
So that is one of our greatest challenges by the way, in 
fields, STEM fields, which there is very high demand in the 
commercial sector for right now, so I would say that is one of 
the key things that we need to address.
    Ms. Kaptur. Thank you.
    Ms. Harrington. So I would add to that that some of the 
challenges that we face now, many of the challenges, for 
example, that we have seen in Iran, have monitoring a really 
unique arrangement to limit their nuclear activities to 
peaceful ones only, has made us really, I think, through what 
are all of the things within the nuclear fuel cycle that we 
need to be more aware of, how would we have more comprehensive 
monitoring, especially as countries continue to move forward 
with their nuclear power programs.
    So that is an area that really is of concern and, very 
clearly, how would we possibly detect any terrorist acquisition 
or intent to utilize nuclear radiological materials and, again, 
getting down to smaller quantities, more difficult movements to 
detect. So those are the sorts of things.
    But, again, reinforcing what the administrator said, being 
able to link some of these activities to universities, being 
able to draw talented young students into these programs, for 
example, through our university consortia, has provided both a 
unique pathway for us to get new talent, but it also helps 
universities identify areas of research that are really 
relevant to our mission. So we will continue to pursue those 
programs, but I have no doubt we will see new challenges in the 
future and we will have to go back to our labs and test their 
capabilities on a regular basis.
    Ms. Kaptur. Thank you. General?
    General Davis. Yes, so for Defense Programs, I would say it 
is probably exascale computing. There was a time, certainly, 
when NNSA drove advanced supercomputing and, basically, 
industry provided us everything we need. Now we are not the 
primary user for advanced supercomputing and exascales. So, as 
we go to exascales, it is important that we are involved, so we 
can make sure that our codes continue to run. Obviously, our 
modeling simulation is key to continuing to certify the 
stockpile and making sure that we understand exactly what is 
going on with those weapons to keep them safe, secure, and 
reliable.
    Ms. Kaptur. Thank you. Admiral?
    Admiral Caldwell. Ma'am, I would say that the singularly 
most important thing to enable the success of Naval Reactors' 
programs is our technical base. This is the funding that goes 
towards our Naval Reactors' operations and infrastructure to 
our Naval Reactors' development and to our program direction. 
That money really goes to support what I call the flywheel, the 
linchpin, the center of gravity for everything that we do. It 
supports the infrastructure of the labs and facilities. It pays 
for the salaries, for my folks to do the oversight and meet our 
regulatory responsibilities. It pays for the scientists, the 
engineers, and technicians that do everything that we do in the 
program from research, design, construction, operation, fleet 
support, and dealing with disposal at end of life of the core.
    That technical base, in fiscal year 2017 budget, the 
request is for $949 million. I could not do what I need to do 
to support today's fleet, tomorrow's fleet, to recapitalize the 
tools, the infrastructure, the equipment that I need to be able 
to ensure the safe, reliable operation of reactor plants. I 
will not go into it now, but there is a litany of things that 
that technical base has enabled, all the research and 
development that eventually goes into reactor plant design. The 
electric drive on OHIO-class replacement is a product of all 
that technical base work over the last several decades. The 
OHIO-class replacement life of the ship fuel is also a result 
of decades of work in that technical base. Every day that 
technical base responds to requests from the fleet on the order 
of 4,000 requests per year for technical assistance that keeps 
our fleet operating. So your support to fund that technical 
base is absolutely essential to what I do.
    Ms. Kaptur. Thank you. Thank you very much for your 
testimony today. Mr. Chairman?
    Mr. Simpson. Thank you.
    Mr. Fleischmann [presiding]. Thank you. Mr. Klotz, I have a 
question about security, sir. This committee has long been 
concerned and acted on those concerns about security funding at 
NNSA sites for several years.
    There has been an increased workload placed on life 
extension programs at NNSA's production facilities in next 
year's budget. Is there a corresponding need to increase the 
security budget or the security budget to accommodate those 
increases, and how will that be accomplished, sir?
    Mr. Klotz. Thank you very much for that question, and of 
course, safe, secure, and effective security ranks up there in 
the very top of what we have to do in order to protect these 
assets, as well as the people who work around them.
    One of the things, since we came into the position a couple 
of years ago, that we have stressed is first of all making sure 
we had the right people in the right positions throughout our 
security apparatus.
    We had a lot of vacancies. We had a lot of people who were 
in acting positions, and we have placed great stress on getting 
highly qualified people into key positions both at headquarters 
here in Washington, DC as well as at our site offices, and also 
making the same stress on the M&O partners that we work with.
    The other thing we called for was development of a security 
roadmap. This was another idea that came out of the Congress, 
and that has been produced. If you do not have a copy of that, 
also in addition to making copies of that document available, I 
would be very delighted to make that available as well.
    We are also again at the direction of the Congress taking a 
look at sort of a 10-year plan for how we refresh all of our 
sites. A lot of the perimeter intrusion detection alarm 
systems, the PIDAS, such as the one we have at Y-12, are 
beginning to age out in terms of sensors, the cameras, other 
aspects of that.
    So, we are working with the CSTART--please do not ask me 
what that acronym stands for. It is an operation that we have 
that Sandia National Laboratories spearheads for all of our 
sites in cooperation with DOD. Again, another product of 
congressional direction, which is yielding a lot of benefits in 
terms of how we go forward in terms of that security.
    At the end of the day though, it boils down to making sure 
we have, you know, the people, and the good people to do that 
work, and so we have asked for some additional money in that 
area to help build up our capabilities.
    Mr. Fleischmann. Very good, sir. Thank you. I have a 
question about lithium, and whomever would like to answer that. 
The Government Accounting Office and the Department of Energy's 
own Inspector General's reviews highlighted a shortage of 
lithium for use in refurbishing nuclear weapons, saying the 
demand had risen and could lead to a lithium shortage at Y-12 
by 2018.
    Could you discuss your plans to respond on how it will 
affect life extension programs, and does the budget request 
indicate a 2-year delay in replacing the lithium facility?
    General Davis. Congressman Fleischmann, thanks for that 
question. As you know, lithium is an important material used in 
U.S. nuclear weapons. The GAO did do a report and said that the 
existing supply of lithium would be used up in 2018. The key 
word there really is the ``existing'' supply.
    NNSA does have a plan to create enough useable lithium to 
get out to 2028 by doing two things. First of all, we will 
convert lithium from dismantled weapons, and we also have an 
existing feedstock of lithium that will convert into the proper 
type of lithium for the life extension programs.
    Of course, we will need to sustain the current lithium 
production capability at Y-12 until a replacement facility does 
come on line. To that end, we started an analysis of 
alternatives using the NNSA's process last month. We expect 
that to be done by the end of this fiscal year. That will 
examine essentially all the options that are available, 
everything from recapitalizing the current capabilities at Y-12 
to perhaps looking at the potential for commercial providers to 
provide this capability.
    So, we plan to have that capability on line no later than 
2025, giving us 3 years of cushion in between the time that 
capability comes on line and we expect to run out of the 
existing supply of lithium.
    Mr. Fleischmann. Thank you, sir. I would like to talk about 
Y-12's alarm response training. Ms. Harrington, before I ask 
you that question, I want to thank you. You came to Oak Ridge 
and actually spoke at our ETEC meeting, were very warmly 
received, and I really appreciate your coming in there.
    That is a group that meets every Friday at Oak Ridge, and 
it is DOE, business people. It is just a great group of 
contractors, and many of you have been there. We get a lot done 
in that forum, and thank you for attending.
    Y-12 has been called the ``Fort Knox of highly enriched 
uranium.'' How are you using Y-12's expertise in securing our 
Nation's highly enriched uranium to secure sensitive nuclear or 
radiological sites around the globe?
    How do you see an increased role for Y-12's alarm response 
training that trains personnel responding to civilian nuclear 
and radiological security alarms?
    Ms. Harrington. Thank you, Congressman. It was truly my 
pleasure to come down and spend time with ETEC. It is a 
remarkably energetic and terrific group. There is just such a 
sense of community there, you should be very proud.
    Mr. Fleischmann. Thank you.
    Ms. Harrington. So, our alarm response training program, I 
think, is a terrific example, number one, of utilization of 
excessed buildings. I think we are now in our second excessed 
building. The first one, we outgrew. It was the old clinic at 
Y-12, and we identified it as being suitable for the type of 
training that we do there.
    Our new facility, and I was there for the ribbon cutting on 
that one, is even better because it provides us a more diverse 
set of scenario's within the building, as well as a very nice 
training area with monitors where you can see the simulated 
attacks and response, how a response force would actually have 
to respond.
    So, it is as close to real life as you can get with blue 
and red plastic guns, but it is a really effective way to train 
emergency responders, local police forces, university police 
forces on how to respond and keep their communities safe.
    So, it has been a terrific opportunity, and we have trained 
thousands of people from across the United States already.
    We are also using it to bring our international 
participants not only to have them go through the training, but 
to help them see how they can set up similar training 
facilities themselves, particularly in areas where there is 
higher risk for this kind of intrusion.
    So, it has been a terrific test bed for us. It has really 
paid off to communities all across the United States. We are in 
the process, as I said, of expanding both how we use it for 
international guests, but particularly as a model for how to do 
this well.
    Mr. Fleischmann. Thank you. General Davis, I have a final 
question for you, sir, on the Supply Chain Management Center. 
Members of the small business community have discussed with me 
rather at length the challenges with NNSA's Supply Chain 
Management Center, and more specifically, the enterprise-wide 
procurement agreements.
    I have been told that NNSA is aware of these concerns. Are 
there plans to address these issues to give small businesses a 
more level playing field to compete on procurements, sir?
    Mr. Klotz. Can I take that?
    Mr. Fleischmann. Yes, sir.
    Mr. Klotz. Just 2 weeks ago, I joined all the members of 
the New Mexico congressional delegation for a first ever 
industry day that the Supply Chain Management Center has held 
in New Mexico or anywhere else for that matter, in order to 
address the concerns of small businesses.
    Four hundred people signed up, 300 people showed up. They 
heard from the congressional delegations. They heard from the 
manager of the Supply Chain Management Center.
    What the Supply Chain Management Center is--it is located 
in Kansas City at our operation there, but it is a strategic 
sourcing center which basically serves as a facilitator for 
companies all over the United States to become a supplier of 
commodities to not just NNSA's eight sites, but many 
Environmental Management, EM sites, as well.
    The purpose of the get-together there was to address the 
very concerns which small businesses in the State of New 
Mexico, particularly northern New Mexico, have expressed about 
the Supply Chain Management Center, to tell them how it 
actually works.
    We do not direct--NNSA and the Department of Energy do not 
direct people to use the Supply Chain Management Center. We 
created it as an opportunity for our M&O partners to reduce 
costs by buying strategically.
    But it is also a great opportunity for small businesses in 
New Mexico, but elsewhere too in fact, to do business with DOE 
and with NNSA, and in some cases, to actually expand beyond the 
local regional areas in which they may do business now to 
nationwide.
    So, we gave them an opportunity to learn how the Supply 
Chain Management Center works. We gave them an opportunity to 
talk face-to-face with the commodity managers from Kansas City 
and also the procurement officers from each of our sites, which 
are part of the M&O contractors, and we are in the process of 
collecting data which we will share with the New Mexico 
delegation as well as you, sir, and this committee as to how 
many people responded and what the feedback was to that.
    We have also changed a little bit of our processes and 
procedures. We set this thing up 10 years ago. As a former boss 
of mine used to say, when you are talking about fallible human 
beings working in complex organizations, there is 100 percent 
chance we do not get 100 percent right 100 percent of the time.
    So, we know there are some adjustments. We have put in a 
provision whereby instead of being a national supplier, you can 
be a regional supplier. In fact, we have had one New Mexico 
company that has very successfully taken advantage of that 
change.
    Mr. Fleischmann. Thank you, sir. Appreciate that, and 
appreciate your endeavors in that regard. My final comment 
would be to Admiral Caldwell. I want to thank you for taking 
the time to come to my office to meet with me to go over naval 
reactors in detail. I knew your predecessor. He did a great job 
as well.
    I just wanted to convey from the Oak Ridge community how 
much we and I cherish the relationship with the Navy, and all 
that you do for our country, and we hope we will be able to 
continue on into the future to provide the much needed fuel as 
the Navy goes forward, sir.
    Admiral Caldwell. Thank you, sir. We value that 
relationship. As I think I told you in your office, I endeavor 
to enhance and strengthen that relationship going forward.
    Mr. Fleischmann. Thank you, sir. With that, Congressman 
Fortenberry, do you have any questions?
    Mr. Fortenberry. Yes, briefly, Mr. Chairman. Thank you. As 
Chairman Simpson had alluded to earlier and you all gave a good 
forthright answer about your commitment to nonproliferation, 
but as it is showing up in budgetary matters, it is sending a 
signal that you are going to need to explain what you very well 
did.
    One of the complaints about government is agencies spin 
down monies they have in order to build upon baseline for more 
expenditures in the previous year--in the next year, rather.
    So, in this regard, you are to be very much commended for 
again being frank that there was an absorption capacity problem 
with other partners. You had some leftover funds. You were 
living under caps, that is a reality, so you are effectively 
turning money back to the government, or directing it anyway.
    That creates the problem for next year. You better hope all 
of us are still here when you come back and show an added 
expenditure above a new baseline. I think we ought to make an 
asterisk and note for the record in that regard.
    Two other quick issues. One is you mentioned the graying 
workforce problem, graying personnel problem that you are 
having. I have raised this with the Nuclear Threat Initiative 
as well, the idea of the next generation of academic experts, 
of scientists, nonproliferation persons who willingly cast 
themselves into the strategic thinking of nonproliferation, 
military and nonmilitary.
    Where are we in this regard? Are we treading water? I do 
not see much enthusiasm frankly for this field among the next 
generation, and that worries me.
    The second question is regarding the International Atomic 
Energy Agency. I raised some of this earlier with the 
Secretary. I think they grow in relevance, they grow in 
prominence as again whatever architecture we are going to have 
for the next 100 years to assure that civilization is not under 
grave threats from nuclear annihilation. That entity grows in 
its potential impact to keep us safe.
    Are you comfortable with, again, our shaping of that 
institution's culture? We have, I think, an excellent director 
general. That continuity of process is essential, and that is 
harder to control in international environments.
    So, those two questions, please.
    Mr. Klotz. Let me start, and Anne has some thoughts on this 
as well. You are right. There was a period of time where 
strategic studies, nuclear studies, defense studies in 
general--there were more opportunities in various academic 
institutions across the United States, including the ones when 
I attended, and that sort of fell off with the end of the Cold 
War.
    I think there has been sort of a resurgence of interest, a 
lot of it fueled not so much by the nuclear strategic force 
side of things, but the nonproliferation, the nuclear security 
field.
    We have had a number of programs in which we have tried to 
draw upon that expertise, one of them is the NNSA graduate 
fellows program, where we bring in some of the best and 
brightest out of recent graduate programs and undergraduate 
programs to work with us at NNSA for a year, and then hopefully 
stay or go on to the laboratories.
    We have had a very, very good success rate in terms of--
    Mr. Fortenberry. Are there Centers of Excellence in this 
regard across the country that you primarily turn to or is it 
coming from multiple disciplines?
    Ms. Harrington. Well, there is a group of targets, 
universities, for example--I hate to keep picking on you, sir, 
but the University of Tennessee.
    Mr. Fleischmann. Bless you for that.
    Ms. Harrington. Howard Hall runs a super program there, but 
he is not the only one to have recognized that we need first-
rate university based programs that not only look at the 
technical issues but blend those with the international 
relations and policy issues.
    We would love to bring some of our fellows to meet you.
    Mr. Fortenberry. You could place one in my office if you 
like. We have more than we can handle.
    Ms. Harrington. We cannot say that too loudly around our 
folks because they are eager and they are talented, and they 
are extremely bright. Some of them actually end up going to the 
IAEA as junior professional officers.
    We have a lot of young talent that feeds into the IAEA like 
that. They will go over, they will spend a couple of years in a 
junior position doing regular staff work, learning an enormous 
amount, but carrying with them all of the things they have 
learned working with us.
    Mr. Fortenberry. So, segue that into my question about the 
IAEA.
    Mr. Klotz. It is a very important question, and I think 
with the JCPOA and as we move into the post-Nuclear Security 
Summit world with the Nuclear Security Summit that President 
Obama will host at the end of March, beginning of April of this 
year, the IAEA and other international organizations will 
likely have an even larger role and more important role to play 
in that process.
    The United States has been intimately involved with the 
IAEA since its creation in the 1950s. I think we know the 
organization very, very well. As I said earlier, we provide 
training. We provide technology. We help them develop their 
concepts.
    Now, it is not just a U.S.-driven thing. We have some great 
international partners who also believe this is an important 
organization and also commit resources and talent to the 
effective operation of the IAEA.
    We also have a lot of Americans over there serving, as Anne 
suggested, in a variety of leadership positions as well as 
early career positions in the IAEA.
    As the Secretary said this morning, it is something we are 
going to have to pay attention to as one of the member nations 
of the IAEA to make sure they have the funding they need, 
either through voluntary contributions or through regular 
annual budgets, to take on the increased workload that we have 
called upon them to take.
    I share your sentiment. I think the leadership, not just at 
the level of the director general, but among the number of the 
deputy director generals and throughout the staff, is 
absolutely first rate.
    I guess the bottom line is our sense is the IAEA is a very 
serious, very sober, and very professional organization, and 
one in which we feel very confident in working closely with as 
well as other member nations through this international 
organization to deal with issues of nuclear security that we 
have talked about.
    Mr. Fortenberry. Thank you all very much.
    Mr. Fleischmann. Thank you. Mr. Visclosky, do you have any 
questions, sir?
    Mr. Visclosky. I do. Perhaps you can go to Ms. Kaptur 
first.
    Mr. Fleischmann. I will recognize Ms. Kaptur first. Ms. 
Kaptur?
    Ms. Kaptur. Yes, as the afternoon wears on, you know we get 
more creative. In listening to your plea for follow-on staff, 
filling the bench that is coming forward, it reminded me--I 
will just tell you the world I live in, from Toledo, Ohio to 
Cleveland, with lots of universities and lots of young people 
thinking about what their future is going to be.
    I recently spoke with the new head of the Berkeley Lab, 
Mike Witherell. I said one of the things we need, whether you 
are the man or we find somebody--when I was growing up there 
was something called ``Mr. Wizard.'' Mr. Wizard used to be on 
TV, and I watched that. That was a really good show. You are 
too young.
    I said we need a Mr. Wizard out there somewhere. I was 
thinking about two science centers that I represent, one in 
Toledo called Imagination Station, and one in Cleveland called 
the Great Lakes Science Center. Thousands of children go 
through there every year.
    They have no clue who you are or what you do or even that 
you exist. We have no lab in our part of the country. We have 
great engineering schools, great scientists, but the Federal 
Government does not really meet in my region very effectively.
    A couple of years ago we had Sailor of the Year from 
Toledo, Ohio, but you cannot get one of your subs up the St. 
Lawrence Seaway, I guarantee you that, Admiral.
    Admiral Caldwell. You never know where we show up.
    Ms. Kaptur. I am waiting. My point is your budget is quite 
sizable, and there are lots of funds spent on communication and 
messaging. You may not be the proper place in the Federal 
Government to do this, Ms. Harrington, but I really want to 
push you a little bit to think about the assets that you do 
have, and how one would develop broadcasting a programming that 
would link to our science centers.
    You must have old collections. You must have very 
interesting materials stored in warehouses all over the place. 
I am not the only representative who has these incredible 
institutions in their communities trying to help raise the next 
generation and trying to find a way to engage them.
    Now, there is a man that broadcasts, and I have no 
investment in his company or I do not even know if he has a 
company or if it is a nonprofit, named Bob Ballard, who goes 
and finds all the ship wrecks. He works for National Geographic 
some of the time, and the kids are, you know, this is really a 
big deal.
    We had an old tanker that went down in Lake Erie many 
decades ago. Just getting all the oil out of that thing and 
doing it in the right way, virtually showing it on a big screen 
in these science centers. The kids get really interested.
    I know you work at such a different level, but there just 
might be a way of bringing some individuals in from these 
science centers and just talking to them, do a convening from 
places like I represent across the country, and link to them 
and the teachers that are taking these thousands of kids, can 
you imagine what that is like, school lunches, everybody has to 
have boots on, and you have to take them down there, and they 
go through these exhibits.
    Can you imagine whatever you could draw from the nuclear 
Navy, what you might have there, and these kids would be 
interested.
    General Davis, whether it is additive manufacturing, we 
have some of these platforms and these science centers, but 
what you might bring to it, and from the science arena, Ms. 
Harrington, what you must have that you cannot communicate to 
us here but maybe something in there, is finding somebody like 
a Bob Ballard. I am not pushing him but he knows how to reach 
the public.
    I think you could really be a force, you could really be a 
force out there, and I do not even like the name ``STEM.'' I 
always say ``STEAM,'' because if you do not have the arts, the 
rest of it does not really work. So, I always talk about STEM, 
not STEAM. You have to have the other half of the brain there, 
too.
    I just think we shortchange our children, especially from 
Washington, because we seem so far away, but I just urge you to 
think about a mechanism to draw in--you know, General Klotz, 
you can think of a way to do this, particularly the Department 
of Energy is far removed from the ordinary person compared to 
something like the SBA, you know. That is on the ground and 
they have agents and all these other things going around, or 
the FBI.
    I would just urge you to consider that. You might have 
something to offer, and I thank you.
    Admiral Caldwell. Can I offer a comment on that? I think 
you might be surprised if you were to go around to naval 
institutions around the United States, and I would venture to 
say even Army, Air Force, Marine Corps institutions, that you 
would find in the public a lot of military members involved in 
their communities in advancing STEM and probably STEAM to some 
extent.
    There are a variety of programs out there, things from 
robotics to developing undersea vehicles. I know some folks in 
my headquarters have been involved in things they are 
interested in, and helping students learn about science, and 
even the labs have folks they have sponsored and brought in 
that pursued science.
    So, there is a lot of that that goes on at various levels 
across the United States with service members and people who 
are in the Federal Government that are interacting with folks 
on a human level and developing interest in science.
    Ms. Kaptur. Thank you, Admiral. I was thinking of a man 
that works for our court system in one of the counties I 
represent. He takes children that have been through the court 
system--he is actually a parole officer--but one of the 
projects that they involved hundreds of children in is building 
ships, seaworthy vessels to go out on the Great Lakes. Can you 
imagine that? These kids are just into it. We have not lost 
anybody yet.
    I am hearing what you are saying, but I am thinking if you 
could create a spot for it inside the department, and we did 
not have a chance to mention that to the Secretary this 
morning.
    By the way, I have to say yesterday the Medal of Honor was 
presented to a wonderful member of our Armed Forces who was 
born in Toledo, my home, and grew up in Grand Rapids, Ohio, 
which I used to represent and do not any longer, but we are 
very honored by his service.
    Mr. Fleischmann. I want to thank the ranking member for her 
comments. Thank you very much. Mr. Visclosky?
    Mr. Visclosky. Thank you very much, Mr. Chairman. Mr. 
Administrator, a recent National Academy of Sciences' report 
recommended a clean slate approach to building new nuclear 
weapons and building prototypes in order to exercise design and 
production skills.
    Do you agree with the recommendation, and do you believe 
NNSA and the labs should be focused on building prototypes, and 
if so, do you have any sense on the cost and how it compares 
with other priorities you have today?
    Mr. Klotz. Thank you, Congressman. That is a very important 
question. I think within the NNSA and within the DOE, we 
certainly recognize the importance of exercising our capability 
to do the whole range of activities associated with nuclear 
weapons from cradle to grave, design, development, 
manufacturing, prototype building, and testing.
    Now, there was a letter sent from each of the laboratory 
directors that were sent at the request of the Senate Armed 
Services Committee which addressed the importance of all this, 
but the sense I took from that is a lot of the work associated 
with that kind of chain of activities is already being done in 
the very robust scientific and technical work that is done in 
support of the stockpile stewardship program and life extension 
programs.
    There was a report that was recently rendered that talked 
about the possibility of prototyping, and there is some 
congressional language that directs that, I think in the NDAA. 
That language was passed relatively late in the year, in 
December 2015, of course.
    So, we have been looking at how we would operationalize 
that, recognizing there is costs associated with that, that 
there are a lot of other priorities within the NNSA portfolio, 
that if we are going to do a program in this particular regard, 
we need to vet it as a program that would require the Nuclear 
Weapons Council blessing of it as well as appropriation 
authorization from the Congress to do that.
    Well before this congressional language came down, General 
Davis' folks had already established a thing called the 
``Defense Program Advisory Committee,'' and that is one of the 
things we specifically asked them to take a look at, and they 
are expected to report out in the early part of this year.
    So, this is something under active consideration. I think 
we are actually doing more in this area than we often recognize 
we are or are given credit for.
    Mr. Visclosky. If I could ask, on the interoperable 
warhead, how much work is slated to be done in 2017, if any at 
all, and how much capability are you retaining to support the 
interoperable warhead, which was deferred at least 5 years from 
2015 to 2020?
    General Davis. Sir, within the actual program for the W78-
1, there is no money asked for in fiscal year 2017. Within the 
RDT&E program, we will be doing some work that will prepare for 
certification of that system, and to make sure that we 
understand the challenges with certifying a system that will 
have a common nuclear explosive package.
    Mr. Visclosky. Okay.
    Mr. Klotz. On some of the work that was done, there was a 
120-day study after that work terminated to make sure we fully 
captured and archived the work that had been done up to that 
particular point.
    As General Davis indicated, the timing of that was moved to 
the right because of other priorities within the budget and a 
question of when do we need that kind of capability, and as I 
mentioned earlier, it comes up with the need to do a life 
extension program or do something with the W78 warhead.
    Mr. Visclosky. Okay. Right before we broke for votes 
earlier in the hearing, you had talked about deferred 
maintenance, and I think the backlog was $3.7 billion. I also 
understand that reportedly by 2019, NNSA may have up to 600 
excess facilities.
    Closing facilities, despite people's assumption that it is 
easy to do, I appreciate that it is not, but also to the extent 
you can save money on deferred maintenance on facilities that 
are no longer needed by the United States of America, it is a 
savings.
    Where is the administration on that and what difficulties 
are you facing? Is it a question of money or any help that the 
committee can give to you? I do not diminish the problem of 
closing anything.
    Mr. Klotz. There are two major problems. The most important 
one is, of course, money to do that. As I mentioned earlier in 
a constrained budget environment, the first dollar always goes 
to the mission and to the people who perform that particular 
mission. These other things get deferred.
    To actually give you the numbers, at the end of fiscal year 
2015, which just passed, we had 421 excess facilities in NNSA, 
90 of which we identified as high-risk facilities.
    Now, the other problem, of course, is some of our 
facilities are contaminated, so before we either demolish them 
or turn them over to Environmental Management to do the 
demolition and disposition of it, we have to do some 
remediation associated with that. That also is both technically 
challenging and costly. But we are ramping up the things that 
we want to do in the area of disposition.
    One of the most important things, in this particular 
budget, is we just opened up, a year or so, a new facility in 
Kansas City. We got out of a 3.2 million square foot World War 
II-era production facility into one half the size, a lot less 
expensive to operate, far more efficient, and we are asking for 
money in 2017 to disposition that by turning it over to a 
private developer, which can disposition that facility for 
about $200 million, where we estimated it would cost the 
Federal Government $900 million. That will take a lot of our 
square footage out.
    Mr. Visclosky. Taking Kansas City as an example, is there 
much as far as job loss in communities that are attached to 
some of these excess facilities or is it simply a question of 
they are not efficient for other uses at that location, they 
are simply not being used for the purposes of NNSA? I assume at 
some point there are considerations of potential job loss in 
communities.
    Mr. Klotz. No, sir. I would have to go back and dig into 
that. My initial reaction is no.
    Mr. Visclosky. That is not part of it?
    Mr. Klotz. It is not part of it, because we move those 
people into other facilities as we build other facilities. In 
every facility, for instance, if we create a new facility to do 
a particular type of operation, the facility that people leave 
to go into that, we take a look at it and say could this be 
repurposed, could it be used for other purposes, or is the 
condition of the facility such that it is time to get rid of 
it.
    Mr. Visclosky. Okay.
    Mr. Klotz. We used to have a rule when I was in the Air 
Force to build a building, tear a building down, unless you had 
some other purpose for it. That is an aspiration that is not 
always backed up by the funds to do it.
    Mr. Visclosky. One final point and more of a point having 
worn a number of hats on this subcommittee, and remembering 
conversations and directives from the committee on lab directed 
research, looking at my notes for the hearing, I understand 
there are new accounting rules that went into effect in 
October.
    I also understand that the Laboratory Commission made 
certain recommendations, and I hope after all of these years we 
are making some progress on that.
    Mr. Klotz. I am not the expert----
    Mr. Visclosky. Overhead. deja vu here.
    Mr. Klotz. Yes, I know that came up in the testimony 
earlier with the Secretary, and it is something I am not the 
expert on in terms of that, other than to say----
    Mr. Visclosky. You need to be.
    Mr. Klotz. I know. There has been some legislation that set 
a floor of no less than 5 percent, no more than seven percent 
on that.
    I will tell you when I talk to the laboratory directors and 
the plant directors for plant directed research and 
development, they say this is one of the most important tools 
they have in terms of recruitment, in terms of retention of 
qualified individuals, and in terms of actually doing some 
leading edge science.
    Mr. Visclosky. I would not argue that point, but there are 
limitations. Thank you. Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you, Mr. Visclosky. I believe we 
will conclude our hearing today. I want to thank each and every 
one of you for your service to our country and for performing 
the vital tasks that NNSA does for our great Nation.
    With that, we will gavel out.
    Mr. Klotz. Thank you, sir.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    			[all]
</pre></body></html>
